No. 20IN THE
Supreme Court of the United States

SFR INVESTMENTS POOL 1, LLC,

Petitioner,

V.

FEDERAL HOME LOAN MORTGAGE CORPORATION, et al.,

Respondents.

BOURNE VALLEY COURT TRUST,

Petitioner,

v.

WELLS FARGO BANK, NA,

Respondent.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court
and that on this day, pursuant to Rule 29 of the Rules of this Court, I caused an
electronic copy of the Joint Petition for a Writ of Certiorari to be served upon the
below-named counsel by e-mail. The parties have consented to electronic service only
for this filing pursuant to the Court's April 15, 2020 Order. All parties required to be
served have been served.

Counsel for Respondent Federal Home Loan Mortgage Corporation:
John H. Maddock III
Gateway Plaza
800 East Canal Street
Richmond, VA 23219-3916
(804) 775-1000

jmaddock@mcguirewoods.com

Counsel for Respondent Federal Housing Finance Agency:
Vivek Suri
Office of the Solicitor General
950 Pennsylvania Avenue NW
Washington, D.C. 20530
(202) 514路2203
SupremeCtBriefs@usdoj.gov
Vi"vek.Suri@usdoj.gov

Counsel for Respondent Federal National Mortgage Association:
Kelly H. Dove
3883 Howard Hughes Parkway, Suite
1100
Las Vegas, NV 89169路5958
(702) 784路5200
kdove@swlaw.com

Counsel for Respondent Wells Fargo Bank, NA:
Kelly H. Dove
3883 Howard Hughes Parkway, Suite
1100
Las Vegas, NV 89169路5958
(702) 784-5200
kdove@swlaw.com

ac eline A. Gilbert
December 31, 2020

2

